Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




FOSTERING EQUITY IN PATIENT
ACCESS TO TRANSPLANTATION:

Differences in Waiting Times for Livers




                   JUNE GIBBS BROWN
                    Inspector General

                        MAY 1999
                      OEI-01-99-00210
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General. Principal OEI staff included:

REGION                                                                         HEADQUARTERS

Russell W. Hereford, Ph.D., Project Leader                           Alan Levine, Program Specialist
Maria E. Maddaloni, M.A., Program Analyst



         To obtain copies of this report, please call the Boston Regional Office at 617-565-1050
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

For the past decade, the Office of Inspector General has maintained an active interest in this
nation’s organ allocation system. Our work has been guided by three underlying tenets that the
Congress spelled out in the National Organ Transplant Act:
C      An equitable system, with each person on a transplant waiting list having an equal
       opportunity to receive a transplant subject to established medical criteria;
C      A national system adhering to uniform policies and standards; and
C      A cooperative system based on the best interests of patients waiting for transplantation.
In 1991, we found that the access of patients to donated kidneys fell short of expectations in some
important respects. For example, we found wide variation in waiting times among racial groups,
transplant centers, and geographic regions. We updated that report in 1998 for kidney and livers;
we found that both racial and geographic disparities in waiting times still exist and, in some cases,
seem to be growing. Today, more than 12,000 people are waiting for a liver transplant, triple the
number who were waiting to be transplanted in 1994.

This report is one in a series designed to shed light on the reasons for and implications of
inequitable access to organ transplantation. This inquiry analyzes data on median waiting times
for liver transplants for the 3-year period ending December 1996. These data are the most recent
available from the Organ Procurement and Transplantation Network (OPTN).

Variation in waiting times for a liver transplant. Our analysis shows considerable variation in
median waiting time for liver transplants among the OPTN regions. For patients with Type O
blood, the most common blood type, median waiting time ranged from 123 days to 958 days.

Likelihood of receiving a liver transplant. Our review shows an inverse relationship between
the median waiting time for liver transplants and the percentage of patients who actually receive a
transplant: The longer the waiting time in an OPTN region, the lower the likelihood of a patient’s
actually receiving a transplant. The percentage of patients with Type O blood who received a
transplant ranged from 30 percent in one region to 64 percent in another.

Likelihood of death while awaiting a liver transplant. Our review shows regional variation in
rates of death, but only limited relationship with length of time on the waiting list. Rates of death
for Type O patients waiting for a liver transplant ranged from 8 percent in two regions to 16
percent in one region. This implies that factors other than waiting time, such as patient
characteristics and listing practices, may affect the rate of death among transplant candidates.

Our work on organ allocation and donation is continuing.
            WAITING TIMES FOR LIVER

               TRANSPLANTATION

Background

In 1991, the Office of Inspector General documented the expectations that Congress and
professional leaders had of organ allocation systems and then contrasted those expectations with
actual practices.1 We found that the access of patients to donated kidneys fell short of
expectations in some important respects; for example, we found wide variation in waiting times
among transplant centers and among different geographic regions of the country, as well as
disparities between blacks and whites in waiting times for a kidney transplant. We also found that
organ distribution remained heavily controlled by individual transplant centers. We found that
among some transplant centers and professionals, a sense of local ownership toward organs
impeded the development of a national system for distributing organs.

Our work in this area has led us to call for an organ allocation system that focuses on:
C       equity among patients, not among transplant centers, and
C	      common medical criteria, not on the circumstances of a patient’s residence or transplant
        center affiliation.

We reiterated these recommendations during testimony at the April 8, 1998, hearing of the House
Subcommittee on Human Resources of the Committee on Government Reform and Oversight.
We also updated differences based on race and geography for testimony before that subcommittee
in June 1998. As of April 1999, more than 12,000 people are waiting for a liver transplant, triple
the number who were waiting to be transplanted in 1994.

This Inquiry

The purpose of this inquiry is to shed light on the implications of regional variation in median
waiting times for liver transplantation. Our analysis focuses at the Organ Procurement and
Transplantation Network (OPTN) regional level.2

We use aggregate data from the OPTN, published in January 1999.3 These data cover the 3-year
period January 1994 through December 1996. The OPTN data are not risk-adjusted to account
for the influence of a number of additional factors that may affect waiting time and access to
transplantation. These factors could include individual patient medical status and characteristics;
transplant center criteria for placing a patient on the waiting list; individual physician practices in
referring and approving patients for transplant; the number, size, and maturity of transplant
programs operating in a region; and the number of patients who are listed at more than one
transplant center.




                                           )))))))))))
                                                1
National Overview of Waiting List for Liver Transplants

During the 3-year period January 1994 through December 1996, almost 24,000 people were
registered on the waiting lists for a liver transplant. Almost half of these people received a
transplant, but 10 percent of the total died while on the transplant list.4

Table 1 shows the number of patients listed for liver transplant in the 11 OPTN regions for all
blood types. The regions comprise different geographical areas and population bases. Although
regions serve a central role in the current organ allocation system, the number of patients listed,
the number of transplant programs, and the number of organ procurement organizations vary
among the regions.5 Moreover, patients may be listed in a region in which they do not reside.

                                               Table 1
               Patients Listed for Liver Transplant (all Blood Types) by OPTN Region
                                    January 1994 - December 1996
     OPTN                                                                                     Patients Listed
                                           States in Region
     Region                                                                                   for Transplant
        1        Connecticut, Massachusetts, Maine, New Hampshire, Rhode                           1,218
                 Island, Vermont
        2        Delaware, Maryland, Pennsylvania, New Jersey,                                     4,036
                 West Virginia, District of Columbia, Northern Virginia
        3        Alabama, Arkansas, Florida, Georgia, Louisiana, Mississippi,                      1,997
                 Puerto Rico
        4        Texas, Oklahoma                                                                   1,721
        5        Arizona, California, Hawaii, Nevada, New Mexico, Utah                             4,658
        6        Alaska, Idaho, Montana, Oregon, Washington                                          735
        7        Illinois, Minnesota, North Dakota, South Dakota, Wisconsin                        2,701
        8        Colorado, Iowa, Kansas, Missouri, Nebraska, Wyoming                               1,711
        9        New York                                                                          1,697
        10       Indiana, Ohio, Michigan                                                           1,829
        11       Kentucky, North Carolina, South Carolina, Tennessee, Virginia                     1,545
                 (outside of Northern Virginia)
     Source: 1997 Report of the OPTN: Waiting List Activity and Donor Procurement, Liver Volume, January 1999.



Waiting Times, Transplants Performed, and Death Rates

Here we present and describe data on median waiting time, patients who received a liver
transplant, and patients who died while awaiting a transplant.6 We focus our discussion on
patients with Type O and Type A blood; patients with these two blood types comprise 84 percent
of those waiting for a liver transplant.7 Where median waiting time is indicated, we refer to the


                                                 )))))))))))
                                                      2
median waiting time for patients listed for a primary liver transplant.8

        Patients with Type O Blood — Waiting Time for Transplant

Table 2 presents data for individuals with Type O blood, who comprise 47 percent of the total
waiting list. Figures 1, 2, and 3 (pages 6-8) present map-based displays of these data. The data
show striking differences among the OPTN regions with respect to the time that patients spend on
the waiting list. Although the national median waiting time is 374 days, it varies from 123 days in
Region 3, comprising the Southeastern States, to 958 days in Region 1, New England.9

                                          Table 2
       Median Waiting Time for Primary Transplant, Transplants Performed, and Deaths
                             Liver Patients with Type O Blood
                              (January 1994 - December 1996)
    OPTN         Patients Registered         Median Waiting            Percent              Percent who
    Region         for Transplant             Time (days)            Transplanted              Died
       1                     569                    958                   30 %                   16 %
       2                   1,827                    572                   38                     13
       3                     941                    123                   64                      9
       4                     844                    213                   52                     13
       5                   2,233                    723                   39                      8
       6                     353                    344                   46                      8
       7                   1,248                    393                   44                     12
       8                     823                    384                   49                     12
       9                     825                    496                   43                      9
       10                    828                    475                   46                     15
       11                    723                    208                   56                      9
   National              11,214                     374                   45 %                   11 %
    Total
   Source: 1997 Report of the OPTN: Waiting List Activity and Donor Procurement, Liver Volume, January 1999.


        Percent Receiving a Transplant
Almost as striking is the relationship between median waiting time for a liver transplant, and the
likelihood of a patient receiving a transplant. In three regions — Regions 3, 11, and 4 — more
than 50 percent of patients on the waiting list during the 3 year period received a transplant.
These patients were on the waiting lists in the regions with the shortest median waiting times.
Conversely, in the three regions with the longest median waiting times — Regions 1, 2, and 5 —
fewer than 40 percent of patients received a transplant.


        Deaths while Waiting for Transplant


                                                 )))))))))))
                                                      3
As Table 2 shows, the relationship between median waiting time and the rate of patient deaths for
those with Type O blood is not as clear cut as the relationship between waiting time and the
likelihood of receiving a transplant. The data show variation in the proportion of patients who
died while on the waiting list, ranging from 8 percent in Regions 5 and 6, to 16 percent in Region
1 and 15 percent in Region 10. At one extreme, Region 1 exhibited both the highest death rate
among patients waiting for transplant and the longest median waiting time. However, Region 5
showed the second longest waiting time, but it also had the lowest rate of patient deaths. And
Region 4, with the third shortest waiting time, had the third highest death rate of 13 percent.

As we note above, these data are not risk-adjusted to reflect characteristics of individual patients,
or the physicians and transplant centers involved in their care. The lack of relationship between
waiting times and death rates may well reflect the importance of these other explanatory factors.

          Patients with Type A Blood — Waiting Time for Transplant

Table 3 presents data for individuals with Type A blood, who comprise 37 percent of the total
waiting list. Figures 4, 5, and 6 (pages 9-11) present map-based displays of these data. With one
exception (Region 1), waiting times for patients with Type A blood were noticeably shorter than
for those with Type O blood.

                                               Table 3
           Median Waiting Time for Primary Transplant, Transplants Performed, and Deaths
                                 Liver Patients with Type A Blood
                                  (January 1994 - December 1996)
   OPTN         Patients Registered         Median Waiting                Percent                 Percent who
   Region        for Transplant              Time (days)                Transplanted                 Died
      1                   457                       953                        36 %                     13 %
      2                 1,518                       359                       44                       11
      3                   758                        91                       67                        9
      4                   640                       202                       60                        9
      5                 1,679                       299                       50                        7
      6                   301                       214                       56                        6
      7                   993                       146                       54                        9
      8                   646                       159                       63                        7
      9                   603                       245                       49                       10
     10                   706                       311                       58                       10
     11                   589                        96                       67                        8
  National              8,890                       210                       54 %                      9%
   Total
      Source: 1997 Report of the OPTN: Waiting List Activity and Donor Procurement, Liver Volume, January 1999.




                                                )))))))))))
                                                     4
       Percent Receiving a Transplant
As with Type O patients, median waiting time for patients with Type A blood is closely associated
with the likelihood of receiving a transplant. More than two-thirds of patients in Regions 3 and
11 received transplants; these are the regions with the shortest waiting times. At the other
extreme, in Region 1, only 36 percent of patients received a transplant.

       Deaths while Waiting for Transplant
An examination of data on those who died while on the waiting list shows only a limited
relationship between length of time on the transplant list and patient death rates. At one end of
the spectrum, Region 1 showed a death rate of 13 percent. However, that rate of death is only
slightly higher than in other regions, even those with substantially shorter waiting times.

At the other extreme, shorter waiting times were not necessarily closely related with lower death
rates. In Region 6, where 6 percent of patients died while on the waiting list, the median waiting
time was 214 days. In those regions with the shortest waiting times — Region 3 (91 days) and
Region 11 (96 days) — the death rates were 9 percent and 8 percent, respectively. As we note
above, factors other than median waiting time may explain the regional variation in rates of death.

Conclusions

Differences among OPTN regions in median waiting times for liver transplants, likelihood of
receiving a transplant, and death rates are considerable. Our analysis leads us to conclude that
where liver transplant candidates live — or at least the region in which they are listed — will
significantly impact their chances of receiving a liver transplant. We found a clear inverse
relationship between the median waiting time for liver transplants and the percentage of patients
who received a transplant. The longer the waiting time within an OPTN region, the lower the
likelihood of a patient’s actually receiving a transplant.

However, the relationship between median waiting time for a transplant and rates of death is not
as direct, even though there is wide regional variation in rates of death. It may well be that other
factors — for example, listing practices and criteria of transplant center and individual physicians;
individual patients’ medical characteristics; and the number, size, and maturity of transplant
programs — exert a larger impact on death rates than do regional differences in waiting time.

Our work on organ allocation and donation is continuing.




                                          )))))))))))
                                               5
                                           Endnotes

1. HHS Office of Inspector General (OIG), The Distribution of Organs for Transplantation:
Expectations and Practices. (OEI-01-89-00550), March 1991.

2. This type of analysis could also be performed at the level of the individual organ procurement
organizations (OPO); however, 13 of the OPOs do not have a liver transplant program within
their service area. In addition, according to the OPTN, median waiting times cannot be calculated
at the OPO level for 6 OPOs for registrants with Type O blood (and 3 OPOs for those with Type
A blood) in areas that have liver transplant programs.

3. 1997 Report of the Organ Procurement and Transplantation Network: Waiting List Activity
and Donor Procurement, Liver Volume, January 1999. These data, although somewhat dated,
are the latest publicly available from the OPTN. They are the type of data that are accessible to
the members of the public who want to assess waiting times and likelihood of a transplant among
various OPTN regions and, indeed, at transplant centers within those regions.

4. 23,848 people were listed on the waiting lists for liver transplants. 2,367 of these people
(10 percent) were listed at the start of this period, and 21,481 were added to the list during this
period — 19,269 were added for their first (or primary) transplant, and 2,238 for
retransplantation, i.e., they already had received a transplant.

Of the 23,848 people on the list, almost half (11,730) received a transplant. More than 10 percent
(2,426) died while on the waiting list, and another 12 percent — 2,859 — were removed from the
list for other reasons. These include refusing a transplant, being transferred to another center,
being medically unsuitable, either improving so a transplant was not needed or deteriorating so
that the patient was too sick to transplant, being transplanted at another center, receiving a living
donor transplant, or some other reason.

5. The following table provides data on OPOs and transplant centers by OPTN region:
                  OPTN          Number of        Number of Liver Transplant
                  Region       OPOs (1996)           Programs (1996)
                     1              2                         6
                     2              5                       14
                     3             12                       12
                     4              4                       12
                     5             10                       18
                     6              2                         4
                     7              4                       11
                     8              5                       11
                     9              5                         6
                    10              6                       10
                    11             10                       13


                                          )))))))))))
                                               12
6. The median waiting time is the number of days by which 50 percent of the cohort received a
transplant. The cohort in this analysis includes all patients who were added tot he waiting list
between January 1, 1994 and December 31, 1996.

As used in the OPTN report, median waiting time is based on the number of days between the
patient being listed and one of three outcomes: (a) receipt of a transplant; (b) removal from the
transplant list, including death of the patient; or (c) September 17, 1997, the cutoff date for the
OPTN data analysis.

In addition, the OPTN data include patients who are listed at more than one center; according to
the OPTN, this figure is about 2 percent of all patients awaiting a liver. For this reason, the
OPTN uses the term registrants, rather than patients. A registrant is counted as having received a
transplant only at the center (or within the region) at which the transplant was performed.

7. We use blood type in our analysis because the OPTN report aggregates data for all statistics
presented in this report by blood type only. Patients with Type B blood comprise 12 percent of
the waiting list, and those with Type AB blood comprise 4 percent of the waiting list. For these
blood types, the distribution of waiting times, percent of patients receiving a transplant types, and
deaths while awaiting a transplant is similar to that for patients with Type O and Type A blood.

8. Between January 1, 1994, and December 31, 1996, 21,507 registrants were added to
transplant lists; 19,269 (90 percent) were added for a primary transplant and 2,238 (10 percent)
were added for a repeat transplant.

9. Wide variation also exists within, as well as among, the OPTN regions. At the level of the
organ procurement organizations, the shortest median waiting time is 46 days; the longest median
waiting time that the OPTN was able to calculate was 721 days. In Region 2, which has 5 OPOs,
median waiting time for patients with Type O blood ranged from 56 to 721 days, and in Region 8,
also with 5 OPOs, median waiting times ranged from 51 to 596 days. Within other regions, the
median waiting times were more narrowly distributed; in Region 11, with 10 OPOs, median
waiting times ranged from 136 to 274 days, and in Region 3, comprising 12 OPOs, median
waiting times ranged from 90 to 233 days.




                                          )))))))))))
                                               13
